No.

IN THE SUPREME COURT OF THE UNITED STATES

MAUvRICE Moss, PETITIONER
¥.

STATE OF FLORIDA, RESPONDENT.

CERTIFICATE OF SERVICE OF MOTION TO PROCEED IN FORMA
PAUPERIS AND PETITION FOR A WRIT OF CERTIORARI

CAREY HAUGHWOUT
Public Defender

Paul Edward Petillo
Assistant Public Defender
Counsel of Record

Office of the Public Defender
Fifteenth Judicial Circuit of Florida
421 Third Street

West Palm Beach, Florida 33401
(561) 355-7600

ppetillo@pd 15.state.fl.us
appeals@pd 15.state.fl.us
I HEREBY CERTIFY that I am a member of the Bar of the Supreme
Court of the United States and represent Petitioner in this cause; that all
parties required to be served with the Motion to Proceed In Forma Pauperis
and Petition for a Writ of Certiorari have been served; and that service was
had pursuant to Rule 29.5, Rules of the Supreme Court of the United States,
by sending a true and accurate copy thereof, by first class U.S. Mail and by
email, addressed to the following parties or their counsel, on 12 August 2020:

Celia Terenzio

Counsel for the State of Florida
Assistant Attorney General

1515 North Flagler Drive, Suite 900
West Palm Beach, Florida 33401
CrimAppWPB@MyFloridaLegal.com

Respectfully submitted,

CAREY HAUGHWOUT

Public Defender

15th Judicial Circuit of Florida
421 Third Street

West Palm Beach, Florida 33401
(561) 355-7600

?. Gtk

Paul Edward Petillo
Assistant Public Defender
Counsel of record
